                                                                   Issue Date
                                                                            May 03, 2012
                                                                   
                                                                   Audit Report Number
                                                                                2012-KC-0002




TO:        Karen Newton Cole, Acting Chief Human Capital Officer, A

           //signed//
FROM:      Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: HUD Did Not Implement Adequate Policies and Procedures for Sanitizing
           Media in Its Multifunction Devices


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the U.S. Department of Housing and Urban Development’s (HUD)
             Office of the Chief Human Capital Officer based on concerns about security risks
             of hard drives in multifunction devices. Our objective was to determine whether
             HUD had documented and implemented procedures to effectively remove
             sensitive data from the hard drives of multifunction devices before disposing of
             them.


 What We Found


             HUD did not monitor or test the overwrite process for multifunction devices to
             ensure that the process effectively sanitized data from multifunction device hard
             drives. It also did not have a detailed plan in place to ensure proper sanitization
             of the devices’ hard drives before disposal.
What We Recommend


           We recommend that the Chief Human Capital Officer develop and implement a
           plan to monitor and test HUD’s overwrite process for hard drives on its
           multifunction devices to ensure that the process is effective. We also recommend
           that the Chief Human Capital Officer develop and implement a plan to ensure that
           all sensitive data are effectively sanitized from the hard drives of its multifunction
           devices before the they are disposed of.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           HUD agreed with our finding and recommendations. We provided the draft
           report to HUD on March 7, 2012 and requested a response by April 6, 2012. It
           provided written comments on May 2, 2012.

           The complete text of the auditee’s response can be found in appendix A of this
           report.




                                              2
                           TABLE OF CONTENTS

Background and Objective                                                     4

Results of Audit
      Finding : HUD Did Not Implement Adequate Policies and Procedures for   5
                Sanitizing Media in Its Multifunction Devices

Scope and Methodology                                                        8

Internal Controls                                                            9

Appendix
   A. Auditee Comments                                                       10
   B. Criteria                                                               12




                                           3
                      BACKGROUND AND OBJECTIVE

The Office of the Chief Information Officer at the U.S. Department of Housing and Urban
Development (HUD) was established on December 1, 1998. HUD’s Chief Information Officer
reports to the Office of the HUD Secretary or Deputy Secretary and advises the Secretary,
Deputy Secretary, and other HUD senior managers on the strategic use of information
technology to support core business processes and achieve mission-critical goals. One of the
Office of the Chief Information Officer’s primary responsibilities is to develop and implement
information technology policy.

The Office of the Chief Human Capital Officer is led by the Chief Human Capital Officer. The
Chief Human Capital Officer is assisted by the Deputy Chief Human Capital Officer. They
provide overall policy and strategic direction for the Office, which is comprised of several
components. One of these is the Office of Facilities Management Services.

The Office of Facilities Management Services provides a diverse array of key support services to
headquarters and the field, including real and personal property management, fleet management,
building operations, energy and environmental management, headquarters transportation
services, lock and key services, parking management, telecommunications management, safety
and health program management, records management, mail distribution and management,
printing and graphics services, and development and issuance of departmental policy for
administrative services. It is responsible for carrying out the Office of the Chief Information
Officer’s information technology policies and procedures with regard to printing equipment.

HUD headquarters is under a 5-year contract with Xerox for more than 300 multifunction
devices, which expires in March 2013. There are several different contracts for multifunction
devices in HUD’s field offices, not all of which involve Xerox machines. HUD staff told us that
no multifunction machines had been disposed of.

Our audit objective was to determine whether HUD had documented and implemented
procedures to effectively remove sensitive data from the hard drives of multifunction devices
before disposing of them.




                                                4
                                 RESULTS OF AUDIT

Finding:       HUD Did Not Implement Adequate Policies and Procedures
               for Sanitizing Media in Its Multifunction Devices
HUD did not monitor or test the overwrite process for its multifunction devices and did not have
a detailed plan in place to ensure proper sanitization of the devices’ hard drives before disposal.
This condition occurred because HUD staff in the Office of the Chief Human Capital Officer
disagreed with the Office of the Chief Information Officer over which office was responsible for
ensuring its hard drives were properly sanitized. As a result, HUD could not be assured that its
overwrite process effectively removed data from the hard drives, and sensitive data could be at
risk.



 HUD Did Not Monitor or Test
 the Overwrite Process

               HUD did not implement policies and procedures for media sanitization. It did not
               monitor or test the overwrite process for its multifunction devices to ensure that
               the process effectively sanitized data from its multifunction device hard drives.
               The Office of the Chief Information Officer had written policies and procedures
               stating that HUD was required to

                      Sanitize all information system media before disposal or release for reuse;
                      Track, document, and verify media sanitization actions; and
                      Periodically test sanitization equipment and procedures to ensure correct
                       performance.

               HUD and information systems contractor staff told us that the hard drives in the
               multifunction devices were overwritten every night and that the overwrite process
               removed all of the data from the hard drives. The overwrite process was set up at
               the time the machines were installed, and each machine printed out a report every
               morning stating whether the overwrite process was successful. There was no
               process in place to use the reports for monitoring the overwrite process, and the
               machines were about to begin the last year of a 5-year contract that expires on
               March 6, 2013.

               HUD’s Xerox representative told us that to be most efficient, the machines should
               be set to immediately overwrite each job after it completes. The Xerox
               representative also told us that the machines can be overwritten on demand, using
               a menu on the machine but that HUD cannot wait until the day the leased
               machines go back to Xerox to perform this function. The overwrite process takes
               20-30 minutes to complete and is not always successful the first time. Therefore


                                                 5
           it could take twice that long to overwrite the machine, which is not feasible while
           machines are being switched out.

           The Xerox representative gave an example of a customer with 147 machines, who
           tried to overwrite them as they left the facility. The Xerox representative said that
           the operation was a nightmare and ultimately unsuccessful because all of the
           machine hard drives were not overwritten. HUD has nearly 300 machines in
           headquarters on one contract.

           HUD recently changed the settings on the machines as a result of our audit work.
           HUD’s information technology contractor set the overwrite process to be performed
           after each job in addition to the nightly overwrite process. The immediate overwrite
           function was recommended by the Xerox representative; however, HUD had not
           tested the overwrite process and could not be assured that it effectively removed data
           from the hard drives.



HUD Did Not Have a Detailed
Disposal Plan in Place

           HUD did not have a detailed plan in place to ensure proper sanitization of the
           devices’ hard drives before disposal. HUD staff had researched what options were
           available and had discussed the options internally, but did not finalize a plan for
           disposing of the hard drives at the end of the lease. The HUD staff we spoke with
           generally agreed that the best way to secure the data on multifunction hard drives is
           to retain the hard drives at the end of the lease and have them physically destroyed
           by shredding them. However, no official decision had been made on how to handle
           the hard drives at the end of the lease.

           Retaining the hard drives is the most expensive way to secure the data. Xerox
           officials told us that the hard drives cost about $350 each and that a few of the
           more complex machines contained two hard drives. They said that this cost
           would be in addition to the cost of the contract. The cost of the shredding process
           is also not included in the contract. HUD staff told us that HUD did not have the
           proper equipment to shred the hard drives and a contractor would have to be hired
           to perform the function.



HUD Staff Disagreed Over
Responsibilities

           HUD staff in the Office of the Chief Human Capital Officer disagreed with the
           Office of the Chief Information Officer over which office was responsible for
           monitoring, testing, and sanitation of data. One of the primary responsibilities of



                                             6
           the Office of the Chief Information Officer is to develop and implement
           information technology policy; however, it is up to the Office of the Chief Human
           Capital Officer to carry out the policy because it is responsible for managing the
           multifunction machines.


  Sensitive Information Could Be
  at Risk

           HUD could not be assured that its overwrite process effectively removed data
           from its hard drives, and sensitive data could be at risk. HUD did not monitor the
           nightly overwrite process, but even if the process was successful, data could be on
           the devices the day they are taken out of service because print, fax, copy, and scan
           jobs may be performed the same day the machine is returned to Xerox. HUD
           needs to develop and implement a disposal plan for the machines to ensure that
           they are not returned with sensitive information on the hard drives.

Recommendations



           We recommend that the Chief Human Capital Officer work with the Chief
           Information Officer to

           1A. Develop and implement a plan to monitor and test HUD’s overwrite process
               for hard drives on its multifunction devices to ensure that the process is
               effective.

           1B. Develop and implement a plan to ensure that all sensitive data are effectively
               removed from the hard drives of its multifunction devices before they are
               disposed of.




                                            7
                         SCOPE AND METHODOLOGY

Our review generally covered the period October 1, 2009, through September 30, 2011. We
performed onsite work from November 2011 through January 2012 at HUD headquarters at 451 7th
Street Southwest, Washington, DC.

To accomplish the audit objective, we

      Reviewed HUD’s handbooks and information technology security procedures.
      Reviewed the National Institute of Standards and Technology’s Recommended Security
       Controls for Federal Information Systems and Organizations.
      Reviewed the Code of Federal Regulations.
      Reviewed HUD’s contract for multifunction devices.
      Conducted interviews with staff from HUD’s Office of the Chief Information Officer,
       Office of the Chief Human Capital Officer, and information technology contractor and
       representatives from the Xerox Corporation.

We did not use or rely on computer-processed data to support our audit conclusions. In addition,
we did not perform testing on the multifunction device hard drives.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               8
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                      Controls to ensure compliance with the Office of the Chief Information
                       Officer’s policies and procedures for media sanitization.
                      Controls for sanitizing sensitive data when disposing of multifunction
                       devices.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies
               Based on our review, we believe that the following items are significant deficiencies:

                      HUD did not have controls in place to ensure that it complied with testing
                       and monitoring requirements for the overwrite process for its multifunction
                       devices.
                      HUD did not have controls in place to ensure that it had a sanitization plan
                       for the multifunction devices before disposal.


                                                 9
                APPENDIXES

Appendix A

             AUDITEE COMMENTS




                    10
11
Appendix B

                                        CRITERIA


HUD Handbook 2400.25, REV-2, CHG-1, section 4.7.6, states that HUD must:
   Sanitize information system media, both digital and non-digital, prior to disposal or
     release for reuse.
   Track, document, and verify media sanitization actions.
   Periodically test sanitization equipment and procedures to ensure correct performance.

HUD Handbook 2400.25, REV-2, CHG-1, section 4.7.6, also states that program offices and
system owners shall ensure that any sensitive information stored on media that will be surplused
or returned to the manufacturer shall be purged from the media before disposal.




                                               12
